<html>
<title> - HUMAN RIGHTS IN CHINA AND TIBET</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
                    HUMAN RIGHTS IN CHINA AND TIBET

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        THURSDAY, MARCH 2, 2000

                               __________

                           Serial No. 106-114

                               __________

    Printed for the use of the Committee on International Relations





 Available via the World Wide Web: http://www.house.gov/international--
                               relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
65-151CC                    WASHINGTON : 2000





                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate





                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Arlen Spector, a United States Senator from the 
  State of Pennsylvania..........................................     1
Mr. Xiao Qiang, Executive Director, Human Rights in China........     8
Mr. Song Yong Yi, Librarian and Researcher, Dickinson College, 
  former detainee in China.......................................    10
Mr. Bhuchung Tsering, Director, International Campaign for Tibet.    12
Mr. John J. Sweeney, President, The American Federation of Labor-
  Congress of Industrial Organizations, AFL-CIO..................    14
Mr. Harry Wu, President, Laogai Research Institute, former 
  detainee in China..............................................    18
Ms. Reyila Abudureyim, Daughter of Rebiya Kadeer, Uighur Muslim 
  detainee in China..............................................    22
Ms. Tracey Zhao, Falun Gong Practitioner, former detainee in 
  China..........................................................    23

                                APPENDIX

Prepared statements:

Hon. Christopher H. Smith, a U.S. Representative in Congress from 
  the State of New Jersey, Chairman, Subcommittee in 
  International Operations and Human Rights......................    36
Mr. Xiao Qiang...................................................    40
Mr. Song Yong Yi.................................................    43
Mr. Bhuchung Tsering.............................................    45
Mr. John J. Sweeney..............................................    49
Mr. Harry Wu.....................................................    52
Ms. Reyila Abudureyim............................................    57
Ms. Tracey Zhao..................................................    67




                    HUMAN RIGHTS IN CHINA AND TIBET

                              ----------                              


                        THURSDAY, MARCH 2, 2000,

                  House of Representatives,
Subcommittee on International Operations and Human 
                                            Rights,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2128, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee) presiding.
    Present: Representatives Smith and Goodling.
    Also present: Representative Wolf and Senator Spector.
    Mr. Smith. [presiding] The Subcommittee will come to order. 
I would like to welcome to the Subcommittee Senator Arlen 
Spector, who will have to depart momentarily for some votes 
that will be taking place on the Senate Floor, but we're very 
pleased to have him here and I yield to the distinguished 
senator from Pennsylvania.
    Senator Spector.

 STATEMENT OF HON. ARLEN SPECTOR, A UNITED STATES SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Senator Spector. Thank you very much, Mr. Chairman. I begin 
by commending you for holding these very important hearings and 
I appreciate an opportunity to address the Committee very 
briefly. We're scheduled to vote on the Senate side at 2:15. 
I've appeared here today to talk about Mr. Yongyi Song who is a 
librarian from Dickinson College, in Carlisle, Pennsylvania, 
who was detained by the People's Republic of China when he was 
traveling there doing educational research work.
    Song was born in Taiwan. He has been a resident of 
Pennsylvania for some 10 years and was on the verge of getting 
his citizenship, which was scheduled for September 1999. I'm 
delighted to say that, since returning, he has been sworn in as 
a citizen. He was taken into custody because he was gathering 
documents about the Cultural Revolution. He is a scholar and he 
is a librarian, he has published extensively on the subject. In 
the name of academic freedom and basic human decency, there was 
absolutely no reason to take Mr. Song into custody.
    Then, on Christmas Eve, criminal charges were filed against 
him that were very vague and spurious in nature. They did 
release his wife, Helen, who returned to the United States. My 
office had interceded to try to help. I compliment the State 
Department, which was very active in trying to work through the 
issue. Secretary of State Albright was personally involved and 
a great deal was done.
    I requested a meeting with the PRC Ambassador to the United 
States. On the morning that that meeting was held, the Friday 
morning, I had a little preliminary word that Song had been 
released. It was quite a U.S. homecoming at the Philadelphia 
International Airport the following Saturday when he was 
released.
    I think that this hearing and the activities of the 
Congress are very important in elevating the issue of human 
rights, and to say the People's Republic of China is difficult 
to deal with is the understatement of the decade.
    When I talked with the PRC Ambassador to the United States, 
I got a little lecture on not interfering in domestic matters 
in China. I responded with a little lecture about human rights, 
and commented about the importance that the People's Republic 
of China was and how much the United States wanted good 
relations with the PRC, but had problems with what was 
happening in Taiwan and missile sales to Pakistan and Tiananmen 
Square and human rights, but we respected the power and growth 
of the Nation of 1,200,000,000 people. The Ambassador quickly 
corrected me: 1,250,000,000. I had left out 50 million people 
in my statement of their population.
    But I think that the PRC did notice the resolutions filed, 
the congressional resolution with sponsors, and our statements 
that if China wanted to be admitted to the community of nations 
on permanent status with the most favored status, World Trade 
Organization, that they would have to face up to some basic 
concepts of due process of law.
    For the record, I made no deals. I only have one vote, but 
it is still a free and uninhibited vote as to what I will do 
when those issues come up.
    But I do commend what you're doing here, Mr. Chairman. 
Congressman Wolf has joined the panel and others who have 
worked very hard on this issue. So I'm delighted to see Mr. 
Song at my side and I know his wife is even more delighted to 
see Mr. Song at her side. Thank you for what you're doing and 
thank you for yielding me a few minutes.
    Mr. Smith. Thank you very much, Senator, for your comments. 
We are all so delighted to see Mr. Song here. It just 
underscores the reason for this hearing, which as I will go 
into in much detail, is to chronicle the abuses, their 
pervasiveness, and the fact that we do have levers that, if 
used prudently, could lead to thousands of Mr. Songs getting 
released. So we do thank you for taking the time to come over 
here. We do appreciate it very much.
    Senator Spector. Thank you.
     Mr. Smith. I'm very pleased to be convening this hearing 
on human rights in China and Tibet, as depicted in the State 
Department's Country Reports on Human Rights Practices, which 
was released last Friday. This Subcommittee will hold a 
worldwide hearing on the Country Reports next Wednesday, March 
8, but the gross and systematic human rights violations 
committed by Beijing regime during the last year are so 
egregious that they require a separate hearing for an in-depth 
analysis of their nature, scope, and possible solutions.
    I am happy to say that the Country Report on human rights 
in China is honest, extensive, and hard-hitting. Sadly, this is 
because there is so much to hit. This year's report is about 
14,000 words longer than last year's. It confirms that, during 
1999, the already despicable behavior of the Chinese communist 
regime has gotten worse in virtually every category of human 
rights concern. In the words of the State Department, ``The 
Chinese Government's poor human rights record deteriorated 
markedly throughout the year. It continued to commit widespread 
and well-documented human rights abuses.''
    The quotations that follow are the administration's own 
words, as taken from the new Country Reports. ``The government 
intensified efforts to suppress dissent'' such that ``almost 
all dissident activity effectively was halted.'' The crackdown 
against political opposition, ``broadened and intensified 
during the year.''
    Regarding the freedom of religion and conscience, ``The 
government continued to restrict freedom of religion and 
intensified controls on some unregistered churches.'' The 
Report notes that, ``Religious services were broken up and 
church leaders or adherents were harassed and, at times, fined, 
detained, beaten, and tortured.'' ``Police closed many 
underground mosques, temples, seminaries, Catholic churches, 
and Protestant house churches. Some were destroyed.''
    During the past year, ``Tibetan Buddhists and Muslim 
Uighurs came under increasing pressure'' and ``Tibetan Buddhism 
came under increasing attack.'' As part of a massive crackdown, 
``Tens of thousands of Falun Gong members were reported 
detained in outdoor stadiums. An unknown number of members who 
refused to recant their beliefs remain detained. Others are 
serving prison or reeducation-through-labor sentences.'' In 
addition, ``There were credible reports of beatings and deaths 
of Falun Gong practitioners in detention who refused to recant 
their beliefs.''
    There was also a chilling report that the 10-year-old 
Panchen Lama, who has been in detention for almost 4 years now, 
had died in government custody. The Chinese government denies 
this report, but because they refuse to allow anyone to see the 
child, there is no way to know whether or not they are lying.
    Remember, the Country Report covers only 1999. During the 
last 2 months, several Falun Gong leaders have been sentenced 
to long prison sentences. Just 3 weeks ago, approximately 150 
agents converged to arrest an 80-year-old Catholic Archbishop, 
John Yang Shudao, of Fujian Province.
    The report also notes the Chinese regime's, ``Violence 
against women, including coercive family planning practices, 
which sometimes include forced abortion and forced 
sterilization.'' During the past year, ``there was a 
significant increase in the number of couples undergoing 
sterilization procedures after giving birth to two children in 
at least one inland province,''. In another province, newly 
promulgated rules state flatly that ``unplanned pregnancies 
must be aborted immediately,''. A quote from the Report.
    The Report details increased repression of minorities. It 
states that, and I quote again, ``Authorities have cracked down 
harshly on suspected Uighur nationalists and independent Muslim 
religious leaders.'' It notes numerous summary executions and 
thousands of arbitrary detentions of Uighurs in Xinjiang. In 
addition, ``The rate at which Tibetan political prisoners are 
dying in detention or soon after their release, demonstrably as 
a result of treatment while in detention, is increasing.'' So 
they're dying upon their release and they're dying while in 
detention.
    The Report makes clear that Beijing, ``continued to 
restrict tightly worker's rights.'' ``Independent trade unions 
are illegal'' and ``The government continued its effort to 
stamp out illegal union activity, including through detention 
or arrest of labor activists.'' Chinese authorities ``have been 
uncooperative,'' in the words of the Country Reports, in 
fulfilling their obligations under the U.S.-China prison labor 
Memorandum of Understanding.
    The United States renewed numerous inspection requests, 
dating all the way back to 1992, to inspect facilities 
suspected of producing slave-made goods. However, according to 
the State Department, ``The Ministry of Justice did not respond 
to any of these requests during the year.'' The reason for 
their nonresponse is no mystery. The report makes clear that 
``forced labor is a serious problem, particularly in penal 
institutions.''
    Finally, the Report states that ``trafficking in persons,'' 
and this is the word of the State Department, ``and the 
abduction of women for trafficking are serious problems.'' It 
notes evidence of complicity in trafficking by ``local 
officials, as well as the police and the military.'' The 
Chinese government rarely imposes effective punishment on the 
traffickers. Instead, it punishes the victims by imposing 
``fines for illegal immigration'' and sometimes ``a term in a 
reeducation-through-labor camp'' against trafficked persons who 
are repatriated to China.
    Let me say, parenthetically, earlier today we had a press 
conference with a number of individuals, including James B. 
Hoffa, the president of the Teamsters Union. One of the points 
that he made and one of the followup actions that we took was 
to drive down in a Teamsters truck to Charlene Barchevsky's 
office to deliver the Country Reports on human rights 
practices. Because, frankly, I don't think her office has read 
it. If they did, they would come to some very, very different 
conclusions regarding our policies vis-a-vis the People's 
Republic of China.
    I look forward to hearing from our distinguished witnesses 
today, not only about some of the details of these atrocities, 
but also about what the United States can do to put an end to 
them.
    Two suggestions come readily to mind. First, the 
administration has announced that it will lead the effort for a 
tough resolution on China at this year's session of the U.N. 
Human Rights Commission in Geneva. This effort is led by 
Assistant Secretary of State for Democracy Harold Koh, who is 
an effective and committed public servant. But the 
administration must ensure that the Geneva effort is not 
ghettoized in the DRL bureau.
    If the administration really cares about winning on this, 
then it must ensure that every desk officer in the State 
Department, every Ambassador and every political officer in 
every one of our embassies, makes clear to their interlocutors 
in foreign governments that the resolution is a top priority in 
the United States policy and that we urgently need their 
government's vote in the Human Rights Commission.
    Even more important, Beijing's regression on human rights 
puts a spotlight on the administration's horrendous timing in 
proposing to give permanent Most Favored Nation status to the 
PRC. Remember the question this year is not whether or not we 
will grant another 1-year extension of MFN. Rather, the 
administration has asked Congress to sign away, once and for 
all time, our right to ever object to MFN for the Beijing 
regime.
    A couple of years ago, the official name of MFN was changed 
to ``normal trade relations,'' to spare Members of Congress 
from having to vote in broad daylight for a policy that still 
legally entitles Beijing to ``most favored'' status under our 
customs and our trade laws. But even after this emergency 
cosmetic surgery, MFN or NTR is still such an embarrassment 
that many of its fondest supporters would prefer never to have 
to vote on it again.
    But when it comes to the rights of political and religious 
dissenters, of workers, of torture victims, of women and their 
unborn children, the annual vote on MFN is critically important 
leverage. At an appearance before this Subcommittee shortly 
after his expulsion from China, former prisoner of conscience 
Wei Jingsheng testified that before an important vote in the 
U.S. Congress, such as the annual MFN vote, the beatings and 
the torture of political prisoners tended to be less frequent 
and less severe. After the vote, once Beijing had gotten what 
it wanted, the beatings and the torture got worse again.
    Similarly, a Uighur Muslim woman from Xinjiang Province 
testified that our annual MFN review even helps the Chinese 
provincial authorities in that distant province decide whether 
to kill people or to let them live. In response to 
demonstrations sparked by China's arrest of Muslim leaders 
during Ramadan, she stated that Beijing waited until after the 
MFN vote before it staged public executions of seven Uighurs 
and sentenced 23 others to prison terms. Giving it up with 
permanent MFN means losing all leverage at trying to mitigate 
this horrific behavior.
    Mr. Smith. I would like to yield to my good friend from 
Pennsylvania, a Senior Member of the International Relations 
Committee and chairman of his own Full Committee for any 
comments he might have.
    Mr. Goodling. Thank you, Mr. Chairman. I specifically want 
to welcome Mr. Song. We had a joyous occasion Sunday a week 
ago. Not only happy to see him back on Dickinson College campus 
where he's a librarian, but also to see him sworn in as a 
United States citizen. He has learned firsthand how important 
individual freedoms and rights are and how quickly they can be 
taken away. So it was just a great experience to be there and 
witness him being sworn in as a citizen of the United States.
    The tragedy, of course, was that we couldn't seem to get 
the Administration to do anything. In fact, the Secretary of 
State pretty much indicated that they don't deal with 
individuals and, furthermore, he's not a citizen. He was 
supposed to have been a citizen in September. They prevented 
him from becoming a citizen in September when that was supposed 
to happen.
    So, welcome back. I look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Goodling, thank you very much.
    Mr. Wolf.
    Mr. Wolf. I just want to thank Mr. Smith for having the 
hearing and the witnesses for being here. I'm going to have to 
leave at 3.
    Everything that Mr. Smith said is true. The persecution of 
the Catholic church in China is horrible. The persecution of 
the Protestant Evangelical church is horrible. The persecution 
of Muslims is horrible and very few people heard Mr. Smith 
mention it. Very few people ever speak out for the Muslims that 
are going through a little hell over there.
    In Tibet, where I visited 2 years ago, what the Tibetan 
community is going through is unbelievable. I don't see how 
this Administration can remain silent, just looking at what's 
taken place. When we spoke to the monks and we spoke to the 
nuns of the torture and the abuse which has taken place, it is 
unbelievable, with the selling of organs and the other things 
that are going on.
    So I think it's important that Mr. Smith is having this 
hearing. This is really what America is about. When I look at 
the latest poll that was done by Peter Hart, 75 percent of 
America, the American people, are opposed to granting MFN. As 
Mr. Smith said, if you read the Country Report, and the State 
Department did a good job of putting it together, no one can 
read that without being just really worked up.
    This administration has lost its way. They have a 
fundamentally amoral policy, bordering on an immoral policy, on 
this issue. I wonder what the President is thinking as he 
leaves his last term. His record will go down as one of the 
worst human rights records in the history of modern times for a 
presidency. His record in Sudan is miserable. His record in 
Rwanda was even more miserable. His record in East Timor was 
horrible. His record in Sierra Leone today is horrible. His 
record in China is absolutely horrible. This administration has 
catered to the worst instincts that I have seen.
    So I am just pleased that Mr. Smith is here having this 
hearing to get the word out. You have been successful. The word 
has reached the American people. Now it has to reach the 
opinion leaders and those who serve good men and women to both 
sides of the aisle in the Congress, that we will never grant 
permanent MFN until the jails are open in Lhasa and they can 
leave and the jails are open in the Tiananmen Square 
demonstrators, some of whom have been there since 1989, can get 
out. That the Muslims can be treated fairly and the organized 
Catholic church can be recognized. The house church leaders can 
operate.
    None of these people are really a threat to the Chinese 
government. Not one Tibetan that I spoke said anything negative 
about the Chinese government. They want to worship the Dalai 
Lama. They want to have their freedom. So if we keep just 
pushing and pushing and pushing, ultimately the same thing that 
happened in the Soviet Union will happen in China. In fact, 
China must have found Ceausescu's playbook. Ceausescu, who was 
head of the barbaric government in Romania did basically what 
China is doing to its own population. What took place in the 
Soviet Union will take place in China. I believe that before 
Mr. Smith and Mr. Goodling and myself, before we leave this 
earth, we will see freedom and liberty in China.
    So I appreciate Mr. Smith having the hearing and all of you 
who seem to show up at these events. You are making a 
difference. You have won the battle with the American people if 
we can just convince the people that represent them. I've given 
up on this administration. But on the next administration and 
the people that represent them on both parties, we can win this 
battle and have freedom. So thank you, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Wolf. Let me introduce 
our distinguished witnesses today, beginning with Xiao Qiang, 
who has served as Executive Director of Human Rights in China, 
a New York-based NGO, since April 1991. Studying in the United 
States at the time, he returned to China 2 days after the 
Tiananmen Square massacre to provide aid and support to the 
victims and their families. Previously the deputy director of 
the Independent Federation of Chinese Students and Scholars, 
Mr. Xiao is also the North American representative of the Asia-
Pacific Human Rights NGO Facilitating Team.
    Second, Bhuchung Tsering is the director of the 
International Campaign for Tibet. Born in Tibet, he grew up 
with the Tibetan exile community in India where his family fled 
to escape Communist Chinese forces. For over 10 years, Mr. 
Tsering worked as part of the Tibetan Government-in-Exile in 
India, including a year spent in Geneva in connection with the 
Tibetan initiative at the U.N. Commission on Human Rights.
    John J. Sweeney, who is flying back from California and 
will be here shortly, was elected president of the AFL-CIO in 
1995 in the first contested election in AFL-CIO history. He is 
currently serving his second term at the helm of that 13 
million-member organization. At the time of his election, Mr. 
Sweeney was serving his fourth term as president of the Service 
Employees International Union and he had been an AFL-CIO Vice 
President since 1980. A published author and the married father 
of two children, he currently resides in Washington and will be 
speaking I believe very strongly on labor rights in the PRC.
    Harry Wu, the Executive Director of the Laogai Research 
Foundation, spent 19 years in 12 different forced-labor camps 
in China because of his criticism of the Communist Party. When 
he was finally released in 1979, Mr. Wu left China and came to 
the U.S. in 1985. In the summer of 1995, Mr. Wu was arrested by 
the Chinese government and convicted for stealing state 
secrets. He was sentenced to 15 years, but expelled from China 
as the result of an extensive international campaign launched 
on his behalf. The author of several books, Mr. Wu established 
the Laogai Research Foundation in 1992.
    Reyila Abdureyim is the daughter of Rebiya Kadeer, a 
prominent Uighur Muslim businesswoman who was arrested by 
Chinese authorities on her way to meet with a research 
delegation from the U.S. Congress last August. The continuing 
detention of Ms. Kadeer, her son, and her secretary is featured 
in the State Department's recently released Country Report on 
Human Rights practices. Ms. Abdureyim currently lives in 
Oklahoma, along with her father, Ms. Kadeer's husband, and four 
younger siblings.
    Song Yongyi is a librarian and head of technical services 
at Dickinson College in Pennsylvania. Born in Shanghai, China 
and persecuted during the Cultural Revolution, Mr. Song has 
been a permanent resident of the U.S. since 1989. Last summer 
he and his wife Helen traveled to China so that he could 
conduct research on the Cultural Revolution. On August 7, they 
were seized by Chinese agents, separated, and interrogated. His 
wife was allowed to leave China on November 16 after much 
intercession. On January 29, he was released. Two weeks ago, he 
was sworn in as an American citizen.
    Finally, Tracy Zhao was born in Beijing, China, but came to 
the United States in 1990 and became a U.S. citizen in 1996. A 
flight attendant and a Falun Dafa practitioner, Ms. Zhao 
traveled to China last month to observe the situation of the 
Falun Gong in China. On February 4, she was detained by Chinese 
agents and held for 8 days.
    I look forward to the testimony of our witness. Mr. Qiang, 
if you could begin.

 STATEMENT OF XIAO QIANG, EXECUTIVE DIRECTOR, HUMAN RIGHTS IN 
                             CHINA

    Mr. Qiang. I want to thank the chairman, Mr. Smith, for 
your leadership in promoting human rights around the world. I 
want to thank Mr. Goodling, Mr. Wolf, for your support for 
Chinese people's struggle for freedom.
    Let me start to say, Human Rights in China, which has a 
research office in Hong Kong and an extensive network in 
virtually every Chinese city, verified and confirmed the State 
Department report of 1999 on the Chinese human rights 
situation. We support the conclusion, which is the grim truth, 
that this past year has seen the most ruthless suppression of 
dissent in China since the crackdown of the 1989 democracy 
movement.
    The freedom of expression, association, and assembling have 
been routinely violated, despite the fact that these rights are 
enshrined in China's own constitution. Other ongoing violations 
of human rights include arbitrary detention, political and 
religious imprisonment, widespread failure to enforce laws 
protecting the rights of the workers and women, suppression of 
religious freedom, and the use of physical and psychological 
coercion in the implementation of the population control 
policy.
    Beginning in the fall of 1998, the Chinese government 
broadened and intensified its crackdown against the China 
Democracy Party and at least 200 China Democracy members have 
been arrested and detained since that time. By year's end, 
almost all of the key members of the China Democracy Party were 
imprisoned and facing some of the longest prison terms handed 
down to dissidents in the past decade. In 1 week in August 
alone, China Democracy Party member Liu Xianbin, She Wanbao, 
Zha Jianguo, and Gao Hongming were sentenced to prison terms of 
13, 12, 9, and 8 years, respectively.
    Moreover, in the past year, tens of thousands of members of 
the outlawed Falun Gong spiritual group have been arrested and 
detained and hundreds of others were sentenced to 
administrative detention in labor camps under Reeducation 
Through Labor. Several Falun Gong leaders were sentenced to 
long prison terms in late December, including the 18-year 
sentence meted out to Li Chang, a 59-year-old official in the 
Public Security Ministry.
    These prisoners and detainees are subject to deplorable 
conditions and are frequently denied access to proper health 
care. Indeed, just 2 days ago, He Xintong, the wife of China 
Democracy Party founder Xu Wenli, began a hunger strike to 
protest prison authorities' refusal to allow her to bring 
medicine to her husband last year. Xu Wenli suffers from 
hepatitis and Xu Wenli is currently 14 months into a 13-year 
prison term imposed for supposedly, quote, ``endangering state 
security.''
    Mr. Chairman, over a decade after the June Fourth massacre 
and the subsequent nationwide wave of repression, hundreds of 
citizens remain in prison for participating in the peaceful 
protests and hundreds more remain in exile. Moreover, the 
families of June Fourth victims and those injured in the 
massacre continue to be subject to harassment and persecution, 
including prohibition from public mourning of their loved ones 
and prevention from receiving purely humanitarian assistance 
from abroad.
    The families submitted a petition almost 10 months ago 
requesting a criminal investigation into the June Fourth 
massacre and the former premiere Li Pong's role in perpetrating 
the massacre, but the government authorities have not even 
bothered to respond to this petition. Actually, to add insult 
to injury, Li Pong has been selected to represent China in the 
United Nations millennial assembling in New York next 
September, despite the fact that he is commonly known as the 
butcher of Beijing.
    While we support the State Department documentation of 
human rights violations in China, the salient question remains: 
What can and should the United States do as the leader of the 
free world to promote a true respect for and adherence to 
universally recognized human rights standards in China? The 
key, I believe, as the chairman just said, lies in the 
country's response to two matters of immediate concern: the 
resolution condemning for its human rights record at the 
upcoming United Nations Human Rights Commission in Geneva and 
permanent, Normal Trade Relations.
    Certainly, Mr. Chairman, the United States is to be 
commended for sponsoring the China resolution at this year's 
commission meeting. In order for the resolution to be 
effective, it must be passed. As Executive Director of Human 
Rights in China, it is my sincere hope that the United States 
will actively seek support from other commission members from 
Europe, Latin America, Asia, and Africa to ensure passage of 
the resolution. I further respectfully urge Congress to write 
to President Clinton emphasizing the urgent need to promote the 
resolution from the highest level of the U.S. Government.
    In addition to the resolution, permanent Normal Trade 
Relations is the most congressional debate on United States-
China relations. In the eagerness to build trade relations with 
China, it is crucial that China's human rights situation 
remains the focal point of the PNTR debate.
    Prior to 1994, the United States had set certain conditions 
that China was required to meet to renew its Most Favored 
Nation status. These conditions included taking steps toward 
implementing the standards set forth in the Universal 
Declaration of Human Rights; releasing and providing an 
acceptable accounting of political and religious prisoners; 
allowing access to prisons by international humanitarian and 
human rights organizations; protecting Tibet's religious and 
cultural heritage; and permitting international radio and 
television broadcasts into China.
    Yet, today, 6 years after trade and human rights were 
officially delinked, these rudimentary conditions have not been 
met. On the contrary, it is all too apparent that they have 
markedly deteriorated. The United States must face up to this 
fact and match its efforts to make China a more reliable 
trading partner with other genuine initiatives to increase the 
pressure on human rights.
    Again, I thank you, Mr. Chairman.
    Mr. Smith. Mr. Qiang, thank you very much for your 
excellent testimony and for the insights over the years that 
you have provided to this Subcommittee, to the Full Committee, 
and to the Congress.
    I'd like to ask Mr. Song if he could present his testimony 
at this point. Mr. Goodling is in a debate later on tonight and 
is very much interested in hearing what you have to say, as we 
all are.

STATEMENT OF SONG YONG YI, LIBRARIAN AND RESEARCHER, DICKINSON 
               COLLEGE, FORMER DETAINEE IN CHINA

    Mr. Song. Chairman, Mr. Goodling, and other Congressmen. 
I'm honored to be here to testify at the hearing on ``Human 
Rights in China and Tibet.'' As a new American citizen, I'm 
also very glad to be here as a witness to serve my Congress and 
my country.
    My testimony will be based strictly upon my personal 
experience in China's prison for about 6 months from last 
August through this January. During my ordeal there, I have 
witnessed how the Chinese secret police deprive us scholars of 
the academic freedom for historical research and how China's 
problematic legal system violate Chinese citizens' basic human 
rights as well. At that time, I was still a Chinese citizen.
    I traveled to China last July to conduct my normal academic 
research on China's Cultural Revolution, which was from 1966 to 
1976. On the early morning, very early, about 1:00 a.m. of 
August 7, China's state security agents detained my wife, Helen 
Yao, and me in a hotel. They put me and my wife separately into 
the Detention Center of Beijing bureau of State Security. 
According to the Chinese Criminal Procedure Law, we had legal 
rights to hire and to see our lawyer as soon as we were 
detained and the Bureau should have notified our relatives in 
Bejing within 24 hours. Unfortunately, none of above happened 
by that law.
    First, the secret policemen told us they did not allow us 
to hire or see any lawyer.
    Second, they started to inform my brother in Beijing about 
our detainment after 3 days, i.e. after 72 hours. Even though, 
after 72 hours, why they informed my brother in Beijing? 
Because my brother went to the police station in Beijing City, 
and put my name and my wife's name on the missing person's 
list. Also, my brother tried to reach a major newspaper, put 
our photographs as missing people on the advertisements. They 
had to inform my brother about our detainment.
    The first night after detainment, we both, my wife Helen 
and me, asked these secret agents why did they detain us? We 
thought we did nothing wrong. Reading many books about CCP's 
court or about CCP's intent, they first detain innocent people. 
They only turn to question to your side. For instance, I asked 
them: Why? They just say, ``You should know. Where is here? 
Here is Bureau of Beijing National Security. You are not easily 
getting in. You are also not easily getting out. At that time, 
the Deputy Director of the Bureau said clearly to me: ``Mr. 
Song, you may spend your lifetime in China.'' You may never 
come back to the U.S. if you don't cooperate with us.
    When she asked them why they detained her, they just simply 
answered ``because you are Mr. Song's wife.'' my wife was never 
involved in my research. She knew nothing about my research. 
When they released my wife on November 16, 1999, the secret 
policemen also forced her to sign a written statement of 
repentance, but she wrote her comments about her reservations 
on the statement.
    Because of lack of evidence, China's secret police changed 
my criminal charge following their inclination during the whole 
6 months of my custody. All of those ridiculous charges were 
even against the Criminal Law of China. First, they decribed my 
research on Cultural Revolution as cover steps the boundary. 
[They] do not allow any scholar to cross. ``So my academic 
study, had ideologically become a great danger to China's 
national security.'' However, the new China's Criminal Law 
indicates very clearly that there is no ideological crime in 
China any more.
    Second, they charged me for ``stealing state secrets'' 
based upon the published material I collected in China at free 
market and used bookstore these materials are Red Guard 
newspapers and handbills, were publicly provided in China 
during the Cultural Revolution 33 years ago and are still 
openly available now. When they want to get a judgment of 
reclassification of those materials, their application was even 
rejected by China's Secrecy Bureau.
    Finally, they accused me of ``providing intelligence to 
foreigners.'' They re-classified these published materials as 
``intelligence,'' since there is never a clear definition in 
China's Criminal Law of the term ``intelligence''. So they used 
this kind of very vague words to charge an innocent scholar. 
Upon this laughable charge, they formally arrested me on 
December 24, 1999.
    In every interrogation, I argued with those policemen in 
every interrogation. On each of the charges, every time. I won. 
However, these secret agents told me that, they would still 
sentence me on the upcoming trial, though they always fell 
silent on finding themselves defeated in argument.
    Under the pressure from U.S. Congress, the State 
Department, China's studies scholars across the world, 
Dickinson College Community, as well as all American people, 
Chinese government finally released me on January 28 and 
dropped all criminal charges against me. Before I boarded the 
Northwest airplane, a young officer told me, that I was 
unfortunately, a hostage being exchanged for WTO. My answer is, 
how shameful it is for a Chinese government to obtain favorable 
trade status by using a Chinese as hostage. So their main 
purpose for releasing me is very clear.
    The results of my release shows China is currently not as 
isolated as 33 years ago in the Cultural Revolution period, and 
Chinese government could no longer disregard international 
pressures on the human rights. But my painful experience also 
absolutely evidenced that China's legal system has so many 
problems and there is still a long and bumpy way to go for the 
China's government's human rights record to improve.
    Thank you again, Chairman.
    Mr. Smith. Mr. Song, thank you very much for your 
testimony. It is so good to have you back.
    Let me ask Bhuchung Tsering if he would make his 
presentation at this point.

STATEMENT OF BHUCHUNG TSERING, DIRECTOR, INTERNATIONAL CAMPAIGN 
                           FOR TIBET

    Mr. Tsering. Thank you, Mr. Chairman. Thank you for giving 
me this opportunity and I would like to request that my full 
statement be placed on the record.
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    Mr. Tsering. Thank you.
    The Tibet section of the State Department Human Rights 
Report this year depicts a good effort to describe in detail 
the situation in Tibet. The Report provides significantly more 
detail about human rights abuses, not just in the Tibet 
Autonomous Region, but also in Tibetan areas outside of it. In 
the previous report, the scope was limited to the development 
inside the Tibet Autonomous Region, thereby neglecting more 
than half of the traditional Tibetan areas where a majority of 
Tibetans live.
    Then 1999 saw the tightening of state control over every 
sphere of Tibetan life. Over 100 Tibetans were arrested in 
1999, according to one report coming out from Tibet, for 
peacefully expressing their beliefs. A Tibetan surrogate 
program, Voice of Tibet, broadcast from Norway, reported the 
expansion of several prisons in Tibet where political prisoners 
are believe to be detained.
    Mr. Chairman, according to one estimate, there are 
currently over 600 documented political prisoners and prisoners 
of conscience in Tibet. The India-based Tibetan Center for 
Human Rights and Democracy has done a good job in documenting 
the case stories of some of these political prisoners.
    The situation of the 10-year-old Panchen Lama, Gedhun 
Choekyi Nyima, is of utmost concern to us. The State Department 
report does not take up the case strongly and clearly. Rather, 
there is an apparent attempt to equate the status of the 
Panchen Lama with the boy, Gyaltsen Norbu, that the Chinese 
government has appointed. The recognition of the Panchen Lama 
is a deeply spiritual process and the United States should be 
categorical in respecting the position of the Tibetan people. 
China has no rights whatsoever in the process of identifying 
Tibetan lamas.
    Agya Rinpoche, a very senior Tibetan lama who held 
prominent political and religious positions at the national 
level in China sought asylum in the United States 1 year back 
because he could not support the Chinese religious policy 
toward Tibet, particularly on the issue of the recognition of 
the Panchen Lama. Today, Agiya Rinpoche received asylum in this 
country and is writing his autobiography, which may contain 
much information on the true nature of China's religious policy 
toward Tibet.
    The report also merely mentions in two sentences the 
dramatic escape of the Gyalwa Karmapa, another prominent 
Tibetan Buddhist leader, from Tibet. This escape by the 14-
year-old Karmapa symbolizes the mental state of Tibetans in 
Tibet. During his first-ever public address in Dharamsala, the 
Karmapa said on February 19, that, ``Over the last two or three 
decades, Tibet has suffered great losses. Tibetan religion and 
culture have reached the point of complete destruction''.
    Mr. Chairman, the escape of Agya Rinpoche and that of 
Karmapa are clear evidence of the fact that even those Tibetans 
who care to or who choose to cooperate with the Chinese 
authorities know that the Chinese attitude toward Tibetan 
religion and culture is dangerous and antagonistic.
    It is no the 5th year of incarceration of Tibetan music 
scholar Ngawang Choephel. China has not even consented to allow 
his mother her legal right of visitation of her son in prison, 
even though the United States has made this request on her 
behalf.
    I also want to draw your attention to PetroChina, China's 
state-owned oil company, which is going public on the New York 
Stock Exchange. We fear that the money raised would be used to 
build a major pipeline in Tibet, where a controversial proposed 
World Bank project is being planned. This project is extremely 
damaging to Tibetans, both in terms of human rights, but also 
environmental and social concerns are there.
    The report also refers to the opening of Internet service 
in Tibet, but fails to mention that its censored and people 
feel extremely reluctant to use it for many purposes. Internet 
users in Tibet do not have access to independent sites on 
Tibet. Most sites, including that of the International Campaign 
for Tibet as well as the Tibetan Government-in-Exile, cannot be 
logged on by Internet users in Tibet.
    This is the situation in Tibet today. So, while the report 
does highlight some of these, it does not provide a solution to 
what can we do for the situation there? So, Mr. Chairman, I 
would like to join you and my previous speakers in pointing out 
that there are two ways in which the United States can act and 
act strongly to followup on the report that it has done.
    First, keep Normal Trade Relations annual instead of 
permanent. The United States should look at its human rights 
report as a strong reminder of why the administration should 
abandon its efforts to secure permanent Normal Trade status 
with China and keep its annual review process.
    Second, the United States should followup on its 
announcement of raising the issue of China's human rights 
practices at the Human Rights Commission in Geneva. The United 
States should take up this at the highest level and actively 
embark on a diplomatic effort to see the passage of its China 
resolution in Geneva. Abandoning the effort to secure a 
permanent NTR would show to Europe and other countries that the 
United States is consistent in its stated commitment to censure 
China at the United Nations Human Rights Commission.
    Finally, Mr. Chairman, human rights violations in Tibet are 
merely symptoms of a bigger problem, which is political. Unless 
political issues are addressed, we cannot expect the human 
rights situation in Tibet to improve. The United States has a 
policy of encouraging unconditional negotiations between the 
Tibetan leadership and the Chinese leadership. This policy 
needs to be more actively implemented.
    Mr. Chairman, once again I thank you for this privilege of 
testifying today and, on behalf of the Tibetan people, I would 
like to thank you and the Members of Congress for your 
continued support to us.
    Mr. Smith. Thank you very much for that testimony. Your 
comments earlier at the press conference were very well-taken 
and, hopefully, will be listened to very carefully by all 
concerned, especially Members of Congress who will voting soon 
on the MFN issue.
    Our next witness will be John Sweeney. As I indicated 
earlier, he is the president of the AFL-CIO, a 13 million-
member organization. I think it's significant that in appearing 
today, he and his organization are trying to make the case to 
get the information out to the American public and to Members 
of Congress that human rights and workers' rights are 
nonexistent in the PRC. Hopefully, we will collectively be able 
to break down the ignorance factor, which is very much in 
evidence.
    As I said earlier, Mr. Hoffa, Harry Wu, and I delivered the 
Country Reports on Human Rights Practices to Charlene 
Barchevsky earlier in the day. We also asked that the President 
himself take a look at his own State Department Country Reports 
on Human Rights Practices. Because, frankly, I don't think 
they've read it. I don't think they have sat down and read the 
very information prepared by their administration. The left 
hand apparently doesn't know what the right hand is doing. It 
wouldn't be the first time that that has happened. But our hope 
is that an honest read of the human rights situation in China 
will lead any reasonable man or woman to the conclusion that we 
cannot aid and abet these kinds of heinous practices.
    Mr. Sweeney, you're next up and you're very welcome to be 
here before the Subcommittee. We look forward to your 
testimony.

     STATEMENT OF JOHN J. SWEENEY, PRESIDENT, THE AMERICAN 
 FEDERATION OF LABOR-CONGRESS OF INDUSTRIAL ORGANIZATIONS, AFL-
                              CIO

    Mr. Sweeney. Thank you, Chairman Smith and Members of this 
Committee, for the opportunity to express the views of the AFL-
CIO about the human and worker rights situation in China.
    This is an extremely important and timely discussion, given 
the intensifying debate in Congress over whether the United 
States should grant China Permanent Normal Trade Relations 
status and the recent release of the report which you've 
referred to, the State Department's Annual Country Report on 
China's Human Rights Record for 1999.
    The State Department Report, all 110 pages of it, is 
staggering in its scope and its breadth. It confirms once again 
that China is one of the worst offenders of human rights in the 
world. China is a country that does not tolerate political 
dissent or free speech. It uses executions and torture to 
maintain order, persecutes religious minorities, and violates 
workers' rights.
    As the State Department reports, China's human rights 
record is getting worse, not better, having deteriorated 
markedly throughout this year as the government intensified 
efforts to suppress dissent. This has occurred as China's 
corporate apologists in the United States have intensified 
their campaign to provide the regime with all the benefits of 
globalization while holding it accountable to not even a 
minimum standard of civil behavior nor even the commitments it 
has made in the past.
    China, which has not yet ratified the two United Nations' 
covenants on human rights which it had agreed to sign before 
President Clinton's trip to China in 1998, has broken every 
agreement it has signed with the United States over the past 10 
years. Chinese government officials are already saying they 
have no intentions of complying with the agreement they signed 
with the United States only 3 months ago.
    Mr. Chairman and Members of the Committee, China has 
undertaken dramatic economic reforms during the past decade 
which has resulted in a significant improvement in the standard 
of living for some citizens, but for millions of Chinese 
workers, the past few years have been the leanest of the post-
Mao era. Workers are responding in growing numbers. Worker 
protests over layoffs and plant shutdowns; over the nonpayment 
of wages, severance pay, and pensions; and over the massive 
corruption of their factory bosses and the local party bosses 
are a daily occurrence all over the country.
    Such protests have become a fact of daily Chinese life. For 
the most part, workers' demands have remained economic. Workers 
want to earn enough for their families to live on. That's all 
they want. But this can change quickly, especially if 
reasonable economic demands remain unmet.
    It is abundantly clear that the major concern of the 
Communist leadership is to keep the protest from escalating and 
challenging its right to rule. The State Department report 
chronicles the record of arrest and sentencing of worker 
activists virtually on a monthly basis throughout 1999. 
Accurate figures as to the number of workers' activists who 
have been detained are difficult to come by, since there are no 
reports of arrests in the official press. Many workers simply 
disappear in the prison system. It is only a matter of time, 
however, before any worker attempting to exercise his or her 
most basic rights will be arrested.
    Let me highlight a more recent arrest not included in the 
State Department report. Wo Keiking worked at a chemical 
factory in Human City, Ubei Province. He was arrested on August 
21, last year, for leading 2,000 fellow workers and family 
members in a demonstration that stopped traffic in the city for 
a day. The protest was over some money that the factory 
management had deducted from the workers' wages in 1996 and 
then absconded with after the factory closed down. Wo had tried 
to discuss the matter with the vice mayor, to no avail. He was 
tried and convicted of disturbing public order. He is now 
serving his 1-year prison sentence. Such stories are 
commonplace in today's China.
    Forced labor continues to be a serious problem, 
particularly in penal institutions. The AFL-CIO believes that 
products made with prison labor enter the United States market 
on a regular basis and that the Memorandum of Understanding 
signed in 1992 prohibiting trade in prison labor products is 
not worth the paper which it is written on. The State 
Department now concedes that, in recent years, the authorities 
have been uncooperative. In fact, the last time the authorities 
permitted a visit by a U.S. customs official to a suspected 
prison labor facility was 3 years ago.
    The depths of the leadership's concerns about any 
independent political activity can also be seen in its harsh 
response to the attempted formation of a tiny opposition party, 
the China Democracy Party. The State Department reports that by 
years' end, almost all of the key leaders of the China 
Democracy Party were serving long prison terms or in custody 
without formal charges and that only a handful of dissidents 
nationwide dared to remain active publicly. A number of 
workers' activists have been detained because of their 
association with the China Democracy Party.
    The only legally recognized trade union structure, the All 
China Federation of Trade Unions, ACFTU, like all Chinese 
institutions, remains under the control of the Communist Party. 
Its leader is not only a member of the Politburo, but also has 
oversight responsibility for the security apparatus. In many 
ways, the ACFTU's traditional role of mobilizing workers to 
achieve Party objectives and improving labor discipline remains 
the same. Only 90 percent of the 103 million members it claims 
to represent work in state-owned enterprises, making the task 
which has been assigned to it of ensuring that growing 
membership dissatisfaction and desperation does not erupt into 
political action an impossible one.
    One thing is for sure, however, the ACFTU considers the 
thousands of workers who have found the courage to stand up and 
protest, many of whom have been arrested and remain in prison 
as we speak, to be petty criminals. That is the message the 
ACFTU has given to the International Trade Union movement every 
time the issue of worker detainees has been raised.
    Before I conclude, I would just like to make a few comments 
about religious persecution in China. The harshness of the 
crackdown on the Falun Gong spiritual movement is another 
reflection of the leadership's preoccupation with preserving 
its own rule. What was so challenging to the authorities was 
not the spiritual precepts Falun Gong represents, but the fact 
that it was able to organize tens of thousands of Chinese 
citizens into an independent movement. Its demonstrated ability 
to organize, independent of the state and the party, would not 
be tolerated. Religious persecution goes well beyond the Falun 
Gong spiritual movement, as you well know, Mr. Chairman.
    The repression of the Catholic church continues. The latest 
in the arrests of Catholic leaders happened less than a month 
ago when Archbishop Yang, 81 years old, was arrested in the 
middle of the night by security police. His whereabouts are 
unknown at this time. Archbishop Yang has spent over 30 years 
of his life in Chinese prisons for refusing to denounce the 
pope as the supreme authority of the Roman Catholic Church and 
for his refusal to cooperate with the authorities to form a 
Chinese Independent Church.
    Of course, the persecution of the Tibetan Buddhists 
continues unabated. Associated Press reported only yesterday 
that the family of Karmapa Lama, who recently fled to India, 
has been detained. The widespread publicity given to the plight 
of this particular monastery may offer some protection for the 
Karmapa Lama and his family. It is the 6 million Tibetan 
Buddhists who live outside the international spotlight who 
continue to be the victims of Chinese government religious 
persecution.
    As you know, Mr. Chairman, the AFL-CIO is urging Congress 
not to grant China permanent Normal Trade Relations status and 
discard annual congressional reviews of that country's human 
rights records. The AFL-CIO recently commissioned a new 
national survey of registered voters conducted by Peter Hart 
Research Associates. Public opinion is strongly opposed to 
ending the system of annual review for China. Americans feel 
strongly that U.S. trade agreements should prevent the loss of 
jobs in the United States, protect the environment, and stop 
unfair competition from countries who violate workers' rights.
    According to the Hart research survey, the majority of 
voters, 65 percent, opposed giving China permanent trade access 
without allowing Congress to annually review its record. 63 
percent of Democrats and 75 percent of Republicans opposed 
Permanent Normal Trade Relations for China. Seven in ten voters 
reject the argument frequently made by supporters of permanent 
free trade with China that the best way to improve human rights 
in China is not to restrict trade, but to engage China and 
include it in important international bodies, such as the World 
Trade Organization.
    They also reject the arguments that the agreement will 
expand our exports and create good jobs in America and that 
American business will be hurt if other countries have access 
to the Chinese market and we don't. This is not the time, in 
our view, to reduce the leverage we may have on China to 
improve its dubious record by ending the annual review and 
giving the Chinese Government a blank check.
    Thank you.
    Mr. Smith. Mr. Sweeney, thank you very much for your very 
eloquent statement and for the mobilization you have initiated 
in Detroit to make American workers aware of this surrender 
that is underway with regard to workers rights and other human 
rights in the People's Republic of China. Without the annual 
review, our leverage is zilch. More people need to be 
mobilized. As the Hart research clearly indicates, when the 
question is posed directly, people seemingly understand the 
consequences. But I think it's reassuring to know that you and 
your organization will be very much out in front to make sure 
that Members of Congress don't give away the store to the 
People's Republic of China.
    I understand a few of our witnesses are under very close 
time restraints. Before introducing our next witness, I'd like 
to ask a question of Mr. Wu, who has to leave shortly after his 
testimony, as does Mr. Sweeney. Looking at the two of you 
sitting side by side, it occurs to me that we have here the 
leader of worker rights in China, Mr. Wu, and the leader of 
worker rights in the United States, Mr. Sweeney. Mr. Wu 
probably would have your job in a parallel organization in 
China if it were free today, because certainly he has paid a 
price, 19 years in the Laogai, and has been indefatigable in 
fighting for those rights since he was released. He has been 
spanning the globe on behalf of worker rights and human rights.
    So, Mr. Wu, please proceed and then we'll go to a few 
questions and then go to our two final distinguished witnesses 
and then go to more questions.

 STATEMENT OF HARRY WU, PRESIDENT, LAOGAI RESEARCH INSTITUTE, 
                    FORMER DETAINEE IN CHINA

    Mr. Wu. Thank you, Mr. Chairman. In my testimony today, I 
would like to focus on three areas of Chinese human rights 
abuses: forced labor in the Laogai, which is China's forced 
labor camp system, China's population control policy; and 
executions and organ harvesting.
    Last week, the State Department released a human rights 
report about China. The State Department report correctly 
states that, ``forced labor is a serious problem,''. The 
Chinese Laogai is not a simple prison. It's equivalent to the 
Soviet Union gulag system. The fundamental idea for this 
Chinese system is ``Reform is the goal, forced labor is the 
means.'' In the Laogai, the prisoners are forced to give up 
their religious and political beliefs, confess their so-called 
crimes, and submit to reform to become new socialist beings. 
This can be a form of psychological torture.
    Since China began on the road to economic reform, the 
production part of the Laogai system has become more and more 
important. Prisoners are regarded as tools of the regime. They 
must fulfill work quotas or face beatings, reducing their food, 
or have their sentences extended. Prisoners in the reeducation-
through-labor camps are there with no trial at all and they 
call this an administrative punishment. Due process is severely 
lacking for just about everyone who goes through the Chinese 
judicial system. I think Mr. Song testified before you all 
Committee about what it takes.
    Some of the products they make in Chinese prison camps to 
exported illegally to the United States. The State Department 
report says, ``A 1999 directory of Chinese corporations 
published by a foreign business information company lists at 
least two correctional institutions as having business 
enterprises.,'' This refers to Dun & Bradstreet, the well-known 
business directory. The Laogai Research Foundation actually 
discovered 99 forced labor camps listed in this directory. Two 
of them had the words, ``Reform through Labor'' in the title, 
but there were 99 in total. Some of them include camps whose 
products are already banned by the U.S. Customs Service. These 
companies are still looking for international customers and 
international investment.
    We do not know what part the Laogai plays in the Chinese 
national economy. This is because all of the facts are 
considered state secrets. Even today, we do not know how many 
camps there are in China, how many prisoners, and what kind of 
products in prison are made by forced labor for export. China 
is not complying with the MOU on prison labor. They no longer 
allow Customs officials to visit the camps and they do not give 
information about suspected camps, as they are required to do. 
The administration of the United States has done nothing.
    As Amnesty International and the State Department report 
noted, China executes more people than every other country in 
the world combined. People sentenced to death are often paraded 
in the streets and humiliated at public sentencing rallies. The 
government calls this ``killing the chicken to scare the 
monkey.'' The prisoners are then taken to the secret execution 
sites. In some cases, the family of the victims can ask for and 
receive the ashes of their loved one.
    According to Chinese report, in China in the last couple of 
years there kidney transplant cases were about 20,000 and also 
a Chinese corporation said most of them, at least 90 percent of 
them, come from prisoners, these death row prisoners.
    The State Department reports that there are, ``credible 
reports that organs from some executed prisoners were removed, 
sold, and transplanted,''. I believe that this is a serious 
understatement. The organ harvesting policy is a national 
policy, coordinated by many different branches of government. 
The courts, police, jails, hospitals are all run by the 
government. The Chinese government makes announcement to say, 
it's not allowed to buy and sell organs. It is true, it is 
different from a country like India and the Philippines you can 
purchase an organ from individual people. You cannot do that in 
China. But it is an entirely government business. They execute 
the prisoners and use them for transplant operations and the 
fact is the hospitals are owned by the government.
    In 1998, this Committee held a hearing on this practice. In 
the past, the Chinese government has repeated this practice 
occurs. Now they just lie and deny it altogether. But the 
evidence keeps coming from China. Just last month, a Hong Kong 
newspaper reported that Hong Kong patients were going to the 
mainland to get liver transplants from executed prisoners. The 
problem continues and is spreading. Even Chinese former 
citizens intend to sell the executed prisoners organs in the 
United States.
    Last, I would like to talk about the Chinese population 
control policy. This is a national policy that affects every 
man, woman, and child in China. We have to know, in this 
country, without a government permit, whether a woman is 
married or unmarried, she cannot have a child. Then there are 
some exceptions to the so-called ``one-child policy,'' but 
those exceptions are still controlled by the government.
    The main issue is what happens to the woman if she goes 
against the government rules. Sometimes the family must pay 
very stiff fines. But in many other areas, women who become 
pregnant are forced to abort and women who have an extra-plan 
child, that means have a second child, are sterilized. Many 
children born outside of the plan are not given the 
identification papers that are needed to get an education, 
health care, and a job. Because they were not in the plan, then 
the government does not care about them.
    This government does not know the meaning of individual 
dignity, but, yet, here we are again talking about whether or 
not to expand our trade with this country. Today there it is a 
fashionable idea that we make an investment in China and make 
trade with them, that would benefit the people and promote 
democracy in China. It seems to me this is kind of a false idea 
and it is an echo to the Chinese line that the money can change 
entire systems.
    For years, the debate was about MFN, Most Favored Nation 
trading status, and each year I asked, why do we favor this 
communist country? We did not favor the Soviet Union in the 
past. We do not favor North Korea and Cuba today. Then they 
changed the name to NTR, Normal Trading Relations. But China is 
not a normal country. Because China is a communist country. But 
I want to tell you today, China is continuing on their own way 
as a communist regime.
    Now the administration and big business wants the United 
States to give up the yearly review of NTR and give China 
permanent NTR. They say that unions, human rights activists, 
some Members of Congress, and others are standing in the way of 
the PNTR and China's entry into the WTO.
    But what about the Chinese government? This government's 
leaders continue human rights abuses and military threats 
against Taiwan. Recently we heard they purchased a missile 
destroyer from Russia and they paid hard currency and hired 
2,000 Soviet military experts. Their using their money to 
upgrade their military systems. Their using their money to 
strengthen their own control. The military police in 1986 only 
half million. Today, there are 1.3 million police.
    It is a sad reality that all of these human rights abuses 
take place without any meaningful action in the international 
community. It is not enough for the United States to sponsor a 
human rights resolution against China in the United Nations 
Human Rights Commission in Geneva. I agree that it is important 
to take a stand in Geneva, but it is the least that the United 
States can do. We should and we can take action in Washington, 
D.C.
    We heard many years ago, that copyrights violations were 
happening in China and that Americans right away wanted to 
impose economic sanctions. When you're talking about human 
rights violations, they say, that's another issue. Because this 
administration will not do it. It is up to the Congress to take 
a stand for a principled China policy that puts people over 
profit.
    Thank you.
    Mr. Smith. Thank you very much, Mr. Wu. Let me just start 
and then I'll go to our final two witnesses, because two of our 
witnesses do have to leave, ask a couple of questions of Mr. Wu 
and Mr. Sweeney.
    Yesterday, Secretary of State Madeleine Albright argued, 
and this is her quote at the House Appropriations Committee, 
``I believe our business practices are such,'' she said, ``that 
really push the issue of worker rights and human rights. The 
way we treat our people is an example.''
    Even in this country, I've never gotten the impression that 
management was in a hand-in-glove relationship with its own 
workers, even within its own factories. Yes, they may have 
their interests at heart, but that's why we have strikes, 
that's why we have binding arbitration. There is almost built 
into the system an adversarial relationship that is very 
constructive. But the Secretary of State seems to be suggesting 
that those same captains of industry, when they go overseas, 
somehow will be in the vanguard of China to protect worker 
rights when the evidence, at least so far, years to date, is 
absolutely contrary to do that.
    As you pointed out, Mr. Sweeney, it's been 3 years since 
there's been an inspection pursuant to the MOU. I remember when 
President Bush first announced that, we took a look at it. I 
went over to China. I tried to test it. I talked to the two 
Customs officials that were deployed with other parts of their 
team working on other things. As you pointed out, then and now, 
the MOU isn't worth the paper it's printed on. The advance 
notice that has to be given is so long that if we do get 
access, we see a Potemkin Village.
    It seems to me that the administration buys into this idea 
that our CEO's and our government reps, when they go and employ 
people over there, are going to be bringing American values, as 
they put it. Do either of you share that optimism that somehow 
if we're over there, worker rights will blossom into fruition?
    Mr. Sweeney. If the secretary assumes that or makes that 
assumption, I think she's dreaming. I really don't think 
there's any basis for making that kind of an assumption. If 
anything, we see multinational corporations taking the low road 
and really building upon the lowest possible level in terms of 
workers' rights and environmental protection and human rights. 
As I said, China hasn't lived up to its agreements. There have 
to be rules. Rules at the WTO, rules in terms of the 
relationship between trade and these issues.
    We're not opposed to trade. We're not unrealistic in terms 
of the growing globalization. But we feel strongly that core 
labor standards and human rights issues and environmental 
protections have to be a part of globalization. China has to 
have some kind of annual review if we're going to see what kind 
of improvements are taking place in these areas.
    Mr. Wu. Mr. Chairman, I think he's right. China under the 
Communist regime oftentimes they had unions, but it's communist 
union. In these American factories and companies in China, 
there are the unions that exist. Those are controlled by the 
party. American money really benefits these unions. So it's a 
union in China and it's controlled by the communists and 
spending and benefits from foreign investment. But if you're 
talking about the other things: the workers can organize their 
own unions, it would not happen and didn't happen in China, 
Communist China, at all.
    Mr. Smith. The State Department report points out that the 
Ministry of Justice did not respond to any of the requests made 
for visits pursuant to the MOU. Not so long ago, the Chinese 
government agreed to the International Covenant on Civil and 
Political Rights with great fanfare and enormous amounts of 
good will being affixed to that. As a matter of fact, I can't 
tell you how many times their PR folks have used that to 
suggest that somehow they're joining the civilized nations, 
with regard to human rights.
    Yet, there's been no implementation of that. The MOU is a 
feckless almost unforceable document that has not been 
implemented. Why do you think anyone in his right mind would 
think that the WTO would be implemented with any kind of 
effectiveness either, since as Mr. Song pointed out, the excuse 
of ``state secrets'' is something that's used with impunity by 
the Chinese leadership?
    Perhaps that's a rhetorical question, but you might want to 
take a stab at it.
    Mr. Sweeney. I don't know why anyone in their right mind 
would think that that's going to be the result. We think that 
in order for these issues to be addressed, that the rules have 
to be written and China has to be forced to play by the same 
rules that the rest of the world plays by.
    Mr. Wu. We are talking about the forced labor products MOU. 
We, a couple of years ago, we issued a report, we explained the 
MOU in a different way. We said it was the Meaning Of Useless. 
OK. That piece of agreement actually is when the Chinese 
government tried to dismiss the case, actually, right now, that 
became realistic. The case was dismissed. The Administration 
didn't do anything in the last couple of years.
    Actually, according to our investigation, many products, 
especially like auto parts, rubber shoes, toys, garments, 
Christmas lights, even binding clips for office use is still 
coming into the United States. They cover up and even if there 
is evidence, solid evidence, that we present to the Customs 
Service and so far, at this moment, there is no action because 
they just don't want to bother their very good relationship 
with the Chinese government.
    Mr. Smith. Thank you very much. I do appreciate your 
excellent testimony. Please feel free to stay until you 
absolutely have to leave. But I do thank you for being here and 
for the fine testimony both of you have provided.
    I would like to ask Ms. Reyila if she would now make her 
presentation.

  STATEMENT OF REYILA ABUDUREYIM, DAUGHTER OF REBIYA KADEER, 
                UIGHUR MUSLIM DETAINEE IN CHINA

    Ms. Abudureyim. I'm testifying because my mother, Rebiya 
Kadeer, and my brother, Ablikim, got arrested last year in 
China. First of all, we thank you all for arranging this 
meeting for us. We thank the senators and the Congressmen in 
Congress.
    In February 5, 1997, the Uighurs who want freedom and 
independence demonstrated in Ely City in Xingguo. But all the 
Chinese cracked down. In February 15, 1997, my father arranged 
a demonstration with 100 Uighur people against the crackdown of 
the Chinese in front of the White House and Chinese embassy in 
Washington, D.C. The Chinese government was informed about the 
demonstration my father arranged. So, on March 27, 1997, the 
Chinese government confiscated my mother's passport while she 
was going to Tashkan. The Chinese government told my mother 
that her husband had arranged a demonstration of war against 
them and, for that reason, she was not allowed to leave the 
country again.
    After losing her passport, she could not finish her 
business in central Asia and lost $600,000 at one time. There 
is a, just for an example, my dad was there also. My mom 
imported 15,000 tons of iron and steel from Kazakstan. At that 
time, it should be $45 million yen in the market. My mom earned 
$7 million instead.
    From that day, my mom was under political stress. The 
electric company tortured her by cutting off the electricity. 
The fire department tortured her by fining her. The Tax Office 
tortured her by doubling her taxes. Unlimited power of 
government makes people think that it's appropriate for the 
government to put stress on my mother.
    In December 12, 1997, my mother gathered 400 businesswomen 
in Rebiya Kadeer Market and built the Thousand Mothers Movement 
to help women to rise. The Chinese government first passed out 
a legal permit to do it. In order to break up the Thousand 
Mothers Movement, in December 25, 1997, the Chinese government 
kept $2 million yuan from the Thousand Mothers Movement in the 
bank.
    My mother was a member of Uighur Autonomous Region's 
political consultation since 1993. In September 18, 1997, 
immigrant Wang Loquan, the secretary of the Uighur Autonomous 
Region, declared that my mom was kicked out of the Chinese 
national political consultation.
    The beginning of August 1999, Miss Carry, from the Library 
of Congress asked my dad for my mother's phone number because 
she was going to Urumqi and wanted to meet with my mother. My 
dad gave it to her. When Miss Carry arrived in Urumqi, she 
called my mom and invited her to hotel where she stayed. In 
August 11, 1999, my mom and her friend with two other people 
were arrested in front of Yendu Hotel by Chinese police and 
security officers on her way to meet Carry.
    On the same night, two of my brothers, Ablikim, 25, Alim, 
23, and my mom's secretary Kahrimam, were arrested. My youngest 
brother got released after 24 hours. The other brother and my 
mom's secretary were sentenced for 2 and 3 years. They are in 
the Olanbay Labor Camp in Urumqi.
    On August 16, 50 Uighur business people went to the 
government to ask them to release my mother. The government 
arrested those people and held them for 1 day. After the 
government courts organs had my mother's case, they returned 
her case to the procuratorate twice. On November 20, last year, 
they declared that there was not enough evidence to put my 
mother on trial. She was accused of stealing state secrets and 
giving information to the outside, as were my brothers. But she 
doesn't know anything about the state secrets. She simply is a 
businesswoman.
    After my mom's arrest, her newly done 12-storey building 
was stopped. Some of her business was stopped. We're waiting 
for the Chinese government to release my mother, my brother, 
and Kahriman. Thank you. God bless you all.
    Mr. Smith. Thank you very much for your outstanding 
testimony and we appreciate your being here today and 
presenting your remarks to the Committee which we will amplify 
and get out to other Members of Congress. So, thank you.
    I'd like to ask our final witness, Ms. Zhao, before going 
to some additional questions, if you could present your 
testimony.

   STATEMENT OF TRACEY ZHAO, FALUN GONG PRACTITIONER, FORMER 
                       DETAINEE IN CHINA

    Ms. Zhao. Good afternoon, everyone. I would like to thank 
the Members of this Committee for the opportunity to speak at 
this hearing today. I hope that my testimony will help shed 
some light on what is happening right now in China regarding 
the suppression of Falun Gong and the persecution of innocent 
Chinese citizens.
    Before I begin, I would like to briefly introduce myself. 
My name is Tracy Zhao. I was born and raised in Beijing, China. 
Currently, I am an American citizen residing in Queens, New 
York. I am 30 years old and working as a flight attendant. I am 
also a Falun Gong practitioner.
    Falun Gong is known as Falun Dafa, a spiritual practice 
based on ancient Chinese principles. It has five sets of 
traditional exercises and teaches practitioners to follow the 
universal virtues of truth, compassion, and tolerance. It has 
attracted millions of people all over the world because of the 
positive effect it has on people's overall health and well-
being.
    In early February of this year, I traveled to Beijing with 
a number of other practitioners. I was interested to see what 
it was like for Falun Gong practitioners in China. I had heard 
stories through news reports and friends, but I wanted to get a 
firsthand look at what was really going on. I had no intention 
of participating in any protests nor was I there to cause 
trouble. I simply wished to observe the situation firsthand.
    Shortly before midnight on February 4th, which was the 
night before the Chinese New Year, I arrived at Tiananmen 
Square. I saw many policemen beating and kicking Falun Dafa 
practitioners and dragging them into police vans. Many 
policemen were without coats and were sweating profusely from 
beating people, and practitioners were trying to peacefully 
practice their meditative exercises as a way to appeal to the 
government to allow them their constitutional right to freedom 
of belief, assembly, and speech.
    I quickly took out a camera to take a picture. The flash 
caught the attention of the police and three of them 
immediately pushed me into the police van without asking me any 
questions. We were all taken to the nearby police station where 
there were hundreds of practitioners being held there. Some 
were bleeding in the face. Others had bruises or black eyes. 
There were children in detention too.
    These Falun Gong practitioners had done nothing wrong, had 
not committed any criminal acts, but had only been exercising 
their constitutional rights. The Chinese government claims it 
is a country ruled by law, but it often violates its own laws. 
In the early hours of February 5th, around 1,200 practitioners, 
including myself, were taken to the Dong Cheng detention center 
on the outskirts of Beijing. For 24 hours, there was no water 
or heat. Each of us received only two pieces of Chinese bread 
for food and we were not allowed to use the bathroom for a 
while.
    After 24 hours, the police questioned me and I told them I 
was an American citizen. They did not believe me and sent me to 
a prison cell. There were 15 other people there. Six of them 
were practitioners and they told me they had been secretly 
tried and had been sentenced for up to a year. All they had 
done was go to the Government Office of Appeals to offer their 
personal testimony to the government on how Falun Gong had 
improved their health and made them better people. They were 
arrested the moment they got there.
    The Premier of China has recently urged the Government 
Office of Appeals to improve their operating procedures so that 
the offices would become better places for citizens to voice 
their concerns without fear of retribution. But for Falun Dafa 
practitioners, walking into these offices is more like walking 
directly into prison.
    Every practitioner in my cell had been abused at some point 
by the prison guard and policemen. In prison, we were given two 
meals a day and it was always the same: two pieces of Chinese 
bread and cabbage soup. At night all of us slept on one big 
wooden platform with one blanket for two people and no pillows. 
It was very crowded. In the entire time I was there, we were 
not allowed to take any showers. None of the practitioners were 
allowed any contact with the outside, nor were family members 
or relatives allowed to visit. The families usually also faced 
huge fines.
    In one instance, a female practitioner was trying to do the 
meditative exercises. But each time she started, a prison guard 
kicked her to the ground. This scene repeated itself many times 
until she had been kicked into a corner. The guard finally left 
her alone and she finished her exercises.
    While I was in prison, the police interrogated me and 
threatened that if I didn't answer all their questions, I would 
be kept in prison forever. Finally, with the assistance of the 
U.S. embassy and reports made by the international media, I was 
released and deported on February 12th, eighth day of my 
detainment. I was not allowed to make any contact with anyone 
the entire time.
    Since the ban on Falun Gong was announced on July 20, 1999, 
the brutality with which this ban has been enforced has 
continued to escalate. It is reported that more than 5,000 
practitioners, including the elderly, pregnant women, and young 
children have been sent to labor camps without proper legal 
procedures, without trial, legal representation, or due 
process.
    In addition, more than 300 practitioners have been tried in 
secret and jailed with sentences of up to 18 years. In 
November, an internal government report stated that, in Beijing 
alone, more than 35,000 practitioners have been detained, with 
many being held under extremely inhumane conditions. So far, 11 
people are known to have died while in police custody, while 
countless others remain unaccounted for.
    Unfortunately, as I commented before, the scope and 
severity of this persecution continues to escalate. For 
example, in January of this year, the Hong Kong-based 
Information Center of Human Rights and Democratic Movement in 
China discovered that some Falun Gong practitioners were now 
being in mental hospitals where they were being injected with 
various drugs and were subject to other tortures. This 
situation has been reported in the world news by CNN, AP, and 
Agence France Press, to name a few.
    All of this is ironic in light of the fact that the 
People's Daily, the state-owned paper, published a report just 
last May stating that Falun Gong is a beneficial practice with 
no political motives that can help people improve their health. 
This was prior to the current crackdown.
    Other television programs drew similar conclusions back 
then as well. Despite the overwhelming brutality currently 
happening in China, I would like to make it clear that Falun 
Gong practitioners are not against the Chinese government. Nor 
do they seek any particular political change or reform. What 
they ask is that they regain the basic human rights to freedom 
of assembly and freedom of belief, which are protected under 
China's own constitution, as well under the U.N. Declaration of 
Human Rights that China has signed.
    In short, we seek your help to open a dialogue with the 
Chinese government so as to peacefully resolve this crisis. On 
behalf of tens of millions of Falun Gong practitioners around 
the world, I want to thank Congressman Chris Smith for 
introducing House Resolution 218, which was unanimously passed 
by the House on November 18, 1999. This House resolution 
condemns China's brutal crackdown on Falun Gong. I would like 
to personally thank this Congress and the U.S. Government for 
the many steps it has taken thus far to encourage the Chinese 
government to end its persecution. I hope you will continue to 
support a peaceful resolution.
    Thank you.
    Mr. Smith. Thank you very much for your testimony. The 
resolution passed overwhelmingly because members, I do believe, 
are deeply concerned and, frankly, are aghast at what's 
happening. We don't understand why, which is why these hearings 
are so important, not just for chronicling the abuse, but also 
for trying to ascertain the ``why''. I think there's been much 
too little, discussion on what is at the core.
    Yesterday, I met with Wei Jingsheng and he spent about an 
hour or so talking to assembled Members of Congress and their 
staffs about our lack of depth as an institution, as a 
democracy, in understanding the true nature of this 
dictatorship and its malevolent intentions toward the United 
States and Taiwan and many other parts of the world, but 
especially toward the United States. We are very Pollyann-ish 
in our treatment of this dictatorship.
    If China were a democracy, constructive engagement would be 
something we could be breaking our backs to accommodate, but we 
are, indeed, enabling the dictatorship, as you put it. Things 
could go from bad to worse. There is an escalation with regard 
to the Falun Gong, which we ignore at their peril and our own. 
I think all of your points were very well taken at this 
hearing.
    I'd like to ask a few questions. According to our press 
reports, the Chinese government has rounded up a number of 
political dissidents--we know about Tibetan Buddhists and Falun 
Gong practitioners--in an effort, to preempt any demonstrations 
during the visit of Mary Robinson, the U.N. High Commissioner 
for Human Rights. What effects do you believe the High 
Commissioner's visit will have? Will she speak out, in your 
view, boldly and clearly, about what's going on there? I mean, 
if access is indeed denied, will she not then become a reason 
for silence? That should ratchet and amplify the message of 
repression. Would any of you like to touch on that? Mr. Qiang?
    Mr. Qiang. Thank you. It was our press report 2 days ago 
and yesterday that got into the fact of the increased 
persecution of civilians, of the Chinese dissidents, trying to 
prevent them from speaking out or trying to meet the High 
Commissioner from the United Nations, Mary Robinson. Our office 
has been regularly in contact with Mary Robinson's office per 
her visit and provided a detailed, in-depth analysis of 
information on the Chinese human rights situation to date.
    Madame Robinson, who is a very respectable human rights 
advocate around the world, however in her last trip to China, 
in our view, was made quite a confusing statement by praising 
China's sudden progress in the human rights area, which didn't 
exist, including the village election and the needed reforms. 
Which we are trying our best effort to keep her informed. This 
time we certainly have asked her to speak out against those 
violations.
    Mr. Smith. Yes.
    Mr. Tsering. Can I just add to what Qiang said? Any 
visitors to China or Tibet, whether it's the High Commissioner 
for Human Rights or any other government officials, unless they 
are well-prepared, it's likely that these may play into the 
hands of the Chinese government. Last time when Mary Robinson 
was in Tibet, I think there was a problem in a Tibetan prison.
    Mr. Smith. Many of us were shocked and dismayed when Kofi 
Annan made his visit to Beijing and claimed, according to press 
reports, that somehow he had gotten a ``better understanding'' 
of the Chinese treatment--we read that as mistreatment--of the 
Falun Gong. Ms. Zhao, do you have any comments on that?
    I asked Mr. Sweeney and Mr. Wu earlier about Madame 
Albright's testimony yesterday, which was not unlike her 
testimony in this room just a few days earlier to the 
International Relations Committee. I posed a question to her 
regarding China and human rights. Her comment yesterday, and 
I'll just quote it again, was, ``I believe that our business 
practices are such that really push the issue of worker rights 
and human rights. The way we treat our people is an example.''
    Is that naive? Or is that something else? Or is it 
accurate? Would anyone like to respond? Yes.
    Mr. Qiang. The suppression of the Chinese people's effort 
to organize independent unions and any other autonomous 
organization is the most severe last year for Tibetans. We 
already established that through the State Department report. 
But I would add one more thing. The Chinese government has been 
using their PR machine to emphasize the so-called dialogue with 
the United States and other democratic countries on the human 
rights area as a way to divert or deflect the international 
pressure.
    There is a simple question, I think, that the United States 
can pose to the Chinese government before establishing any 
meaningful dialogue. Which is, the Chinese government must 
start a dialogue on human rights with the Chinese people with 
any outside organizations. Those organizations, including my 
organization, has been routinely requested the meetings with 
Chinese officials to discuss the country's human rights 
situation and never had any response.
    Mr. Smith. Let me ask a question. Ms. Reyila, you might 
want to comment on this and Mr. Bhuchung, you as well. The 
Country Reports on China states, ``Ethnic minorities such as 
the Muslim Uighurs and Tibetans are subject to less-stringent 
population controls and enjoy relatively lax enforcement of the 
government's population policy.'' This account seems to 
contradict testimony presented to this Subcommittee by a Uighur 
in late 1997. She described forced abortions being performed as 
late as the 40th week of pregnancy and stated, ``The birth 
control policy Uighurs is unbearable. Babies are being killed 
in delivery rooms''.
    Do you agree with the State Department's description of the 
implementation of Chinese population policy against ethnic 
minorities in Tibet?
    Ms. Abudureyim. Yes, I agree, because when mom----
    Mr. Smith. Wait. Let me say, you agree that it's less 
stringent than in the rest of China, or stronger, or the same?
    Ms. Abudureyim. I don't quite understand what you're 
saying.
    Mr. Smith. The State Department is suggesting that ethnic 
minorities are treated less harshly than, say, the Han Chinese 
in the rest of China.
    Ms. Abudureyim. No, that's not true.
    Mr. Smith. Thank you. Did you want to give any additional 
amplification on that?
    Ms. Abudureyim. Yes, it was 10 years ago, it happened to 
mom. I was going to say that, but I don't know if you're 
interested in that. My mom was put in 10 years ago and she was 
fined $45,000 yuan. It was pretty big money in China 2 years 
ago. Because she was delivering her third child to my stepdad.
    Mr. Smith. She was fined for that. Did you want to comment 
on that?
    Mr. Tsering. Just that and also one sort of looking at all 
Chinese rules whether it's on the family planning or any other 
rules, I think you've got to keep in mind what's on paper and 
what's in practice, whether it's in Tibet or in Eastern 
Turkestan, anywhere. The family planning issue is one thing 
which we are sensitive to. It is our main charge against the 
Chinese authorities that they're trying to destroy the Tibetan 
identity. Therefore, it's clearly bad for Tibetans, even if the 
Chinese are implementing a slightly better policy in certain 
areas. Because of the sheer difference in numbers, that we face 
the brunt of the policy.
    Mr. Smith. Ms. Reyila, you mentioned that in November the 
Chinese government stated that it did not have enough evidence 
to put your mother on trial. Do you have any information as to 
how your mother is being treated in custody? Has any American 
diplomat made any effort on her behalf to try to intercede? I 
know you've pointed out State Department comments, but has 
there been any attempt to visit her?
    Ms. Abudureyim. Yes. February 3, 2000 was when mom was 
visited by the political consultation seven people on the 
political consultation. That's all we know, as far as I know, 
that's the only time.
     Mr. Smith. Mr. Song, we really want to keep a focus on 
what our own government is saying and on its lack of follow-
through with regard to policy. The Country Report does say that 
your months of detention, and this is a quote, ``raises 
concerns about a possible chilling effect on other Chinese 
researchers.'' When I first saw that, I said, ``Gee do you 
think?'' But what signal do you really think that your 
incarceration sends to others?
    Mr. Song. In my case, think we might have two results. 
First is that I went to the trial, and they sentenced me at 
least 5 years under Article 111 of Chinia's Criminal Law. If I 
was in this situation for western scholar, who go to China to 
do the research, will be very difficult. Why? Because actually 
what I did was a routine job for any researcher.
    When I argued with these agents, I said, ``If you sentence 
me, any university, any college teachers and scholars inside 
China as well as outside China should be sentenced for their 
research. Because we do the same job. We collect all the 
original material first, read them carefully, get an idea, and 
then write a book or essay.
    But now the situation is a little bit different because we 
won. We won the battle. I was released. For the Chinese 
ministry part, especially for the national security agency 
part, they will be more careful, but for our parts, there is 
still potentially danger for Chinese-American scholars, is 
especially Chinese scholars only have green card and don't have 
citizenship to do the research in China. Their research 
materials could be classified as anything all those newspapers 
I called are openly available during the Cultural Revolution 
and openly available now, but they still classified them as 
``state secrets.''
    When the Cultural Revolution happened, all Red Guards, 
including me, produced tons and tons of those kinds of material 
anywhere in China, like air, like sunlight. Reclassifying these 
materials means the Chinese legal system does not work, not as 
they have written on paper. In practice, those secret agents 
never obey their law. They just use their internal regulations 
against the law. Who knows what kind of internal regulations 
they follow?
    For instance, they told me, ``You cannot bring out those 
old newspapers to the United States.'' Then I asked them: ``I 
have read all of China's criminal laws. I didn't find one 
single sentence indicated that I could not bring the materials 
abroad. This is not secret. ``They answered, we have internal 
regulations.'' I asked, ``show me your internal regulations.'' 
They said: Because this is internal, we cannot let you read 
it.'' So who knows if the internal one exists or not?
    Mr. Smith. Thank you. Mr. Song. Let me ask you another 
question. Someone said that your release proves that 
constructive engagement and quiet diplomacy will yield more 
fruit than linking economic benefits to human rights. I suspect 
that your individual case will be used and maybe even exploited 
by some of those who take the other view with regard to 
permanent MFN. I would like to know from you what is your 
opinion in terms of linking human rights with trade?
    Mr. Song. Yes, my opinion is that the victory come from 
both sides, both hands. One hand did not work but both hands 
worked. In my case, however,I first owned my release to 
international pressure. It made Chinese government understand 
if they still detain me, if they sentence me, they would not 
get any change for WTO. So they released me. But I still want 
to say that communication also is our strategy to force them to 
understand the international standard of human rights as well 
as academic freedom.
    Mr. Smith. Mr. Qiang, let me ask you a question with regard 
to Secretary Albright's testimony. She attempted to deflect 
some of the criticism on MFN by merely pointing to the Geneva 
Resolution and the fact that we support the resolution there. 
We all know that that resolution ought not to be seen in 
isolation. It is a very constructive way of trying to press the 
case of human rights, but the U.S. only has one vote.
    The question always arises: How serious is the U.S. effort? 
As I said in my opening comments, is it a full-court press 
where all of our embassies are trying to inform their host 
governments just how important and what a priority it is? It 
also could be a half-hearted, half-baked effort. One could then 
say, ``See, but we tried.'' Then it's used to deflect the 
concerns that many of us have about the real big issue, and 
that is linkage of human rights and trade.
    What is your take on that issue? How serious is our 
undertaking in Geneva?
    Mr. Qiang. Let me first say, take the resolution at the 
Geneva Convention condemning China's human rights situation, 
it's an important step. It is the correct step. It requires 
much more effort than just sponsoring a resolution. China is a 
permanent member of the Security Council in the United Nations. 
It is tremendously influential, especially coming to the 
question of human rights, the Chinese government has been using 
all the diplomatic, political, and economic leverages to gain 
the votes from mostly Third World countries to deflect their 
human rights abuses.
    But that requires that the U.S. Government, which is a 
premier sponsor of the resolution, who is also a leader of the 
democratic world, should put much more diplomatic effort from 
the highest level, from the White House, to every Ambassador in 
every member state of the Commission, to lobbying to gain the 
actual vote for the passage. That's what I urge the U.S. 
Government to do.
    I also agree that, just as Geneva is not enough, there are 
the bilateral pressure and the multilateral pressure has to go 
hand-in-hand. That lack of a bilateral pressure and 
inconsistency in the current administration's human rights 
policy on China is a problem that contributes to the human 
rights situation in China, especially since 1998. Why 1998? 
Because the Chinese have got all they want from the United 
States, the two summits and the rest of the bilateral 
agreements.
    On the human rights front, what the Chinese government has 
done is playing with I call it hostage politics or diplomacy. 
It is wonderful to see Mr. Wei Jingsing and Mr. Song Yong Yi, 
very few high prominent political prisoners are in exile. At 
least they are not in prison. However, that is by no means to 
say that the Chinese government has any sincere step to 
implement human rights as a country.
    Mr. Song, we are very happy you are here, but, again, I 
wouldn't take that as any step for the Chinese government right 
now in improving human rights. If it is anything, it is the 
opposite. They are using, abusing with over broad so-called 
national security laws and under the name of so-called rule by 
law, continually prosecuting human rights inside of China.
    Mr. Smith. Mr. Bhuchung, let me ask you a question in 
regards to the whereabouts, of the Panchen Lama whom we're all 
deeply concerned about. Is there any recent information about 
him?
    Let me ask you an additional question. This year's State 
Department report continues to refer to Gedhun Choekyi Nyima 
as, ``the boy recognized by the Dalai Lama as the Panchen 
Lama,'' rather than just as the Panchen Lama. In a similar 
vein, it refers to Catholics who are loyal to the pope and not 
to the government-sponsored Catholic Patriotic Association as 
``unofficial Catholics.''
    Do you think that this way of reporting undermines the 
right of religious communities to define themselves? Does it 
give unmerited credibility to the government's ability to say 
this person is the Panchen Lama?
    Mr. Tsering. Mr. Chairman, can I answer the second question 
first? Yes, it does. When the United States comes up with such 
confusing statements it does affect religious position of the 
Tibetan believers.
    Regarding the situation of the Panchen Lama, we are, of 
course, very much concerned. Particularly so because of some of 
the things you mentioned earlier. There was this news that the 
Panchen Lama may have even died. Today, although it is no more 
than 5 years since the Chinese have taken the Panchen Lama, 
there is no report as to his whereabouts. There is no 
indication about his health condition.
    We have sought ways through the individual governments, 
including the U.S. Government, as well as through the United 
Nations agencies, including the United Nations Rights of the 
Child Committee, in order to impress upon the government of 
China the importance of this one boy.
    This is not a political issue. This is an issue of 
religious rights of the Tibetan people. Even if they do not 
consider it as a religious issue, it is the right of a now 10-
year-old boy.
    Mr. Smith. Let me ask you a general question, Mr. Qiang 
maybe you want to touch on this. The report makes clear that 
trafficking in women in the international sex trade is a 
problem in China and that the local government officials are 
often complicity in such trafficking.
    As I think you may know, I introduced H.R. 3244. It's a 
comprehensive anti-trafficking bill with particular emphasis on 
those women, most of whom were forced into prostitution. It 
would, at this end, in this country, increase punishment of 
those who are a part of that and anyone along the line who is 
apprehended. They could get up to life imprisonment. But it 
also would deny nonhumanitarian aid to those countries that 
have not taken steps to deter trafficking. It also has some 
provisions dealing with helping women who are apprehended here 
as part of, say, a crackdown on a brothel, so they're not put 
on the next plane and put right back in the cycle.
    Now the trafficking in China has not been a very high 
visibility issue in the past, although there have been some 
reports. What's your sense as to its severity? Do you think our 
legislation, if you've studied it, is helpful in trying to 
mitigate the problem?
    Mr. Qiang. Thank you, Chairman, for addressing this issue. 
It is not very visible, but actually China has been trying very 
hard to raise the awareness of this particular issue, the 
trafficking in women. We did research in 1995, including in 
part of our report presented to the World Conference of the 
Women's Conference in Beijing, and the followup report 2 years 
ago.
    The importance of this issue also lies in the context of 
two things. One, it is human rights violation in China. It's 
not just about a handful of dissidents. It's not just about 
certain minority groups or the workers' union. It's literally 
every citizen in the country.
    The second one is the question of during these economic 
changes, economic reforms, opening up, those vulnerable groups 
and the new issues coming up, because of a lack of action or 
lack of protection of human rights and the victims of human 
rights abuses spread into the new vulnerable groups. The woman 
trafficking is one of those groups. It is of those groups. It 
is a severe issue in China, indeed. There is a lack of 
legislation and the political will to protect those vulnerable 
groups during those social changes.
    But in addition to that, the fact of a lack of independent 
organizations, lack of a free press, lack of an independent 
judicial system severely contributes to those kind of 
violations.
    Mr. Smith. Let me ask the question, and anyone who would 
want to respond to this, please do. I've been informed that 
there is about to be a $5 to $7 billion initial public offering 
of a controversial foreign corporation, PetroChina, here in the 
United States. PetroChina is a subsidiary of the China National 
Petroleum Corporation. In addition to its possible complicity 
in inflicting serious environmental damage on Tibet, the CNPC 
is also a 40 percent equity shareholder in the oil consortium 
of the Khartoum regime in Sudan, which sponsors genocide, 
terrorism, and slavery.
    In your opinion, how serious is the danger that the 
proceeds from this IPO will go to support the political 
activities of another rogue regime, that which is in Khartoum? 
Do you have any suggestions as to what we might do to try to 
stop, can the U.S. Government do anything to stop this stock 
offering?
    Mr. Tsering. I would now like to take this question because 
it is related to the Tibetan people in a direct way. I think it 
involves two issues. One, of course, it is a well-known fact 
that in the past the CNPC has been using money it has gotten to 
support the regime in Sudan. Therefore, there is a coalition of 
organizations which has been launching a campaign against it.
    But we have had information saying that the money that 
PetroChina proposes to raise this time through their IPO may be 
used to exploit gas and petroleum resources in Tibet, which is 
unfortunately or fortunately located near a controversial World 
Bank project. If such a project leads to explosion of gas, it 
would harm the Tibetans there. Second, it would change the 
demographic map of the region and, thereby, bring social and 
political unrest into the area.
    So we have started a campaign recently along with other 
organizations. I believe AFL-CIO has also come aboard on this 
campaign requesting that American investors not buy from this 
IPO because if China wants investment, international money, 
China should learn to play by the rules. Right now, China 
doesn't play by the rules. Therefore, it's important that 
investors teach China this lesson by not buying the PetroChina 
shares.
    Mr. Smith. Let me ask Ms. Zhao, if you could speak to 
whether or not you think the U.S. Government response has been 
adequate to the atrocities committed against the Falun Gong, 
which, you pointed out, are escalating. I think the number you 
used was 11 people who have been murdered by the regime. 
Countless others have been incarcerated or beaten.
    It is indefensible for this government to be engaging with 
china in a way that enables or facilitates that to happen. I 
mean, in plain daylight. I've been following the reports every 
day of people having their legs kicked out from under them, 
according to Routers. I'm interested. Some of my Republican and 
Democratic colleagues are deeply interested. But has the 
administration done enough to protest? What would be your 
recommendation for what we might do further to try to get them 
to lay off this relatively new repression?
    Ms. Zhao. I think right now the hardest thing is to 
communicate with the Chinese government. All these people are 
trying every day from all over the world and all over China. 
They try to tell the government we want an open dialogue with 
the Chinese government and there is no way to get them to 
receive the message, I guess. So I think just to let them know 
that we need an open dialogue with the Falun practitioners. To 
let them know that we want all the practitioners that have been 
arrested, to let them go free and we can practice in public 
legally. That's what we want.
    Mr. Smith. Thank you.
    Are there any additional comments that any of our witnesses 
would like to make before we conclude the hearing?
    Mr. Tsering. Just one.
    Mr. Smith. Yes.
    Mr. Tsering. It's not just the people in Tibet. Also they 
are proposing to exploit oil fields in Eastern Turkestan so the 
Eastern Turkestan people may also like to be involved in this 
campaign.
    Mr. Smith. Yes.
    Mr. Qiang. Just two points. First, is to reemphasize what 
Ms. Zhao and I said earlier about a dialogue with the Chinese 
people. Ten years ago, the students in Tiananmen peacefully 
demonstrating required a dialogue with the government 
officials. What they got was tanks and machine guns. Now the 
Falun Gong people are in the reeducation-through-labor prisons. 
People like myself, they are in exile. Without that basic step, 
how can we say there is any human rights movement improvement 
in China?
    Second, those human rights violation has a direct 
implication to the business or the business rules dealing with 
China. Let me give you two examples. One is, as you probably 
have read through the press, the report recently from the New 
York Times. A Chinese citizen who lived in the United States 
for 20 years, Mr. Vuan, who recently visited his family back in 
Shanghai as a messenger to meet one of the Tiananmen mothers, 
the mothers of Tiananmen victims, trying to deliver some 
humanitarian donations to the mother.
    But the security police stopped him, interrogated him. They 
then, when they found out he doesn't have the money with him, 
they forced him to write out a check from his U.S. bank as a 
condition that otherwise they will implicate there his family 
and sentence him. So, basically, this is extortion. He has to 
write that check out of his U.S. bank. That kind of outrageous 
behavior, I think it is directly to do with the business rules.
    There is another one, even more serious. My organization 
Human Rights in China has wired $20,000 U.S. dollars through 
the Chase Manhattan Bank in New York to the Bank of China to a 
recipient who will help us deliver this money to the Tiananmen 
mothers. But the money was reported by the Bank of China to the 
Chinese security and the security came, forced the recipient to 
restore the money, and confiscated the money.
    This is the last year, last June, however, when Human 
Rights in China has been asking Chase Manhattan to withdraw 
this money because we realized there was the possibility of 
this. The Bank of China--they are a business partner of Chase 
Manhattan Bank--replied the simply false information saying the 
money had already been taken. At that time, we had clear 
evidence the money was still in the Bank of China.
    So by violating those business rules and the so-called 
National Security Law, I think that human rights violations 
clearly are nonexistent, just on those dissidents, but also, 
directly, in this case, as a business partner when you're 
dealing with China.
    Mr. Smith. I want to thank our very distinguished witnesses 
for being here today, for your testimony, for your brave 
efforts on behalf of human rights in China. The information 
that you conveyed to this Subcommittee will be given to the 
Members of the House and some Senators, but certainly to 
Members of the House. I do believe that the knowledge that we 
glean from these hearings, and especially this one, will become 
ammunition in the upcoming fight.
    Because right now there's an all-out, as you know, public 
relations effort being made by the Secretary of State, the 
President of the United States. Arms will be twisted to try to 
go along with permanent MFN in the next several weeks and 
couple of months. But the information you give as witnesses 
helps us to make informed decisions. I always believe just go 
wherever the facts take you. What you're giving us is further 
insight into the barbarity of the Chinese dictatorship. That 
has to get out and we will do everything we possibly can to 
ensure that it does.
    So, thank you so much for being here and taking the time. 
This hearing is adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             March 2, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5151.001
    
    [GRAPHIC] [TIFF OMITTED] T5151.002
    
    [GRAPHIC] [TIFF OMITTED] T5151.003
    
    [GRAPHIC] [TIFF OMITTED] T5151.004
    
    [GRAPHIC] [TIFF OMITTED] T5151.005
    
    [GRAPHIC] [TIFF OMITTED] T5151.006
    
    [GRAPHIC] [TIFF OMITTED] T5151.007
    
    [GRAPHIC] [TIFF OMITTED] T5151.008
    
    [GRAPHIC] [TIFF OMITTED] T5151.009
    
    [GRAPHIC] [TIFF OMITTED] T5151.010
    
    [GRAPHIC] [TIFF OMITTED] T5151.011
    
    [GRAPHIC] [TIFF OMITTED] T5151.012
    
    [GRAPHIC] [TIFF OMITTED] T5151.013
    
    [GRAPHIC] [TIFF OMITTED] T5151.014
    
    [GRAPHIC] [TIFF OMITTED] T5151.015
    
    [GRAPHIC] [TIFF OMITTED] T5151.016
    
    [GRAPHIC] [TIFF OMITTED] T5151.017
    
    [GRAPHIC] [TIFF OMITTED] T5151.018
    
    [GRAPHIC] [TIFF OMITTED] T5151.019
    
    [GRAPHIC] [TIFF OMITTED] T5151.020
    
    [GRAPHIC] [TIFF OMITTED] T5151.021
    
    [GRAPHIC] [TIFF OMITTED] T5151.022
    
    [GRAPHIC] [TIFF OMITTED] T5151.023
    
    [GRAPHIC] [TIFF OMITTED] T5151.024
    
    [GRAPHIC] [TIFF OMITTED] T5151.025
    
    [GRAPHIC] [TIFF OMITTED] T5151.026
    
    [GRAPHIC] [TIFF OMITTED] T5151.027
    
    [GRAPHIC] [TIFF OMITTED] T5151.028
    
    [GRAPHIC] [TIFF OMITTED] T5151.029
    
    [GRAPHIC] [TIFF OMITTED] T5151.030
    
    [GRAPHIC] [TIFF OMITTED] T5151.031
    
    [GRAPHIC] [TIFF OMITTED] T5151.032
    
    [GRAPHIC] [TIFF OMITTED] T5151.033
    
    [GRAPHIC] [TIFF OMITTED] T5151.034
    
    [GRAPHIC] [TIFF OMITTED] T5151.035
    

</pre></body></html>
